March 14, 2012

TO:           Kathleen Sebelius
              Secretary of Health and Human Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      U.S. Department of Health and Human Services Did Not Fully Comply With
              Federal Requirements for Reporting Improper Payments (A-17-12-52000)


The attached final report, entitled U.S. Department of Health and Human Services Did Not Fully
Comply With Federal Requirements for Reporting Improper Payments, provides the results of
our review of the U.S. Department of Health and Human Services’ annual Agency Financial
Report and accompanying material. This report fulfills the reporting requirements of the
Improper Payments Information Act of 2002 (IPIA) as amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

We have sent similar letters to the Honorable Joseph Lieberman; the Honorable Darrell E. Issa;
the Honorable Gene L. Dodaro, Comptroller of the United States; and the Honorable Daniel I.
Werfel, Controller, Office of Federal Financial Management, Office of Management and Budget.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audits, at (202) 619-1157 or
through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your final management
decision within 6 months. Please refer to report number A-17-12-52000 in all correspondence.


Attachment
Page 2 – Kathleen Sebelius


cc:   Ellen G. Murray
      Assistant Secretary for Financial Resources

      Sheila Conley
      Deputy Assistant Secretary for Financial Resources

      Christine Jones
      Office of Program Integrity Coordination
      Office of the Assistant Secretary for Financial Resources
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




U.S. DEPARTMENT OF HEALTH AND
HUMAN SERVICES DID NOT FULLY
     COMPLY WITH FEDERAL
 REQUIREMENTS FOR REPORTING
      IMPROPER PAYMENTS




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-17-12-52000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

To improve accountability of Federal agencies’ administration of funds, the Offices of Inspector
General (OIG), including the OIG of the Department of Health and Human Services
(the Department), are required to review and report on agencies’ annual Agency Financial Report
(AFR) and accompanying material to determine compliance with the Improper Payments
Information Act of 2002 (IPIA) as amended by the Improper Payments Elimination and
Recovery Act of 2010 (IPERA).

To determine compliance with the IPIA, an OIG should review the AFR of the most recent fiscal
year (FY) to determine whether the agency conducted a program-specific risk assessment to
identify each program or activity that is susceptible to significant improper payments and
reported specific information on those programs in its AFR, including whether the rate of
improper payments was less than 10 percent. The OIG must also evaluate the accuracy and
completeness of agency reporting and evaluate agency performance in reducing and recapturing
improper payments.

OBJECTIVES

Our objectives were to (1) determine if the Department complied with the IPIA as amended by
IPERA for FY 2011 in accordance with related Office of Management and Budget (OMB)
guidance, (2) evaluate the accuracy and completeness of Department reporting, and (3) evaluate
the Department’s performance in reducing and recapturing improper payments.

SUMMARY OF FINDINGS

Nine programs were deemed by OMB to be susceptible to making significant improper
payments. For five programs (i.e., Medicare Fee-for-Service, Medicare Prescription Drug
Benefit, Medicaid, Foster Care, and Head Start), the Department complied with the IPIA as
amended by IPERA. For four programs (i.e., Medicare Advantage, Children’s Health Insurance
Program, Temporary Assistance for Needy Families, and Child Care Development Fund), the
Department did not meet one or more requirements. For two of the four programs,
(i.e., Children’s Health Insurance Program and Temporary Assistance for Needy Families), the
Department did not report improper payment estimates, and thus could not meet other
requirements. For the other two programs (i.e., Medicare Advantage and Child Care
Development Fund), the Department reported improper payment rates that were greater than
10 percent.

Regarding the accuracy and completeness of Department reporting, for seven programs
(i.e., Medicare Fee-for-Service, Medicare Prescription Drug Benefit, Medicaid, Foster Care,
Head Start, Medicare Advantage, and Child Care Development Fund), we did not identify any
inaccuracies or gaps in most of the information reported by the Department. However, for two
programs (i.e., Children’s Health Insurance Program and Temporary Assistance for Needy
Families), the information reported was inconsistent or incomplete. In addition, we determined



                                               i
that the Department could improve the accuracy of its improper payment estimate for the
Medicare Fee-for-Service program.

With regard to the Department’s performance in reducing and recapturing improper payments,
the Department reported reductions in rates for five of the seven programs (i.e., Medicare
Fee-for-Service, Medicaid, Head Start, Medicare Advantage, and Child Care Development Fund)
for which it reported improper payment rates and developed corrective action plans for all seven
programs that if implemented as designed, could be effective in further reducing improper
payments.

RECOMMENDATIONS

We recommend that the Department improve its compliance with the IPIA as amended.
Specifically, the Department should:

   •   address payment errors in the Medicare Advantage and Child Care Development Fund
       programs and reduce their improper payment error rates below 10 percent;

   •   develop an improper payment estimate for the Temporary Assistance for Needy Families
       program and, if necessary, seek statutory authority to require State participation in such a
       measurement;

   •   produce a Children’s Health Insurance Program error rate for FY 2012; and

   •   determine the feasibility of developing an estimate to adjust the Medicare Fee-for-Service
       Recovery Audit rate similar to the estimate used to adjust the Fee-for-Service improper
       payment rate.

We also recommend that the Department maintain sufficient documentation to support the
amounts reported in the AFR related to recapturing improper payments, which we were unable to
evaluate.

DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS

The Department described the actions it is taking to address the first three recommendations. In
response to our fourth recommendation, the Department pointed out that it did not believe an
adjustment estimate was applicable because, unlike the improper payment estimate, the recovery
audit rate is based on actual amounts identified and recovered. The Department did not comment
on the recommendation to maintain sufficient supporting documentation.

OFFICE OF INSPECTOR GENERAL RESPONSE

We recognize that developing an appeals adjustment estimate for the recovery audit rate may not
be the only solution for recognizing the impact of successful appeals. Nonetheless, it is
important that the Department inform financial statement users about the potential impact of
appeals on the recovery audit rate, particularly if such appeals have a substantial impact on the
rate.

                                                ii
The Department’s comments are included as Appendix C. The Department also provided
technical comments, which we addressed as appropriate.




                                           iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................2
               Objectives ............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          DEPARTMENT COMPLIANCE WITH THE
           IMPROPER PAYMENTS INFORMATION ACT OF 2002 .......................................3
            Federal Requirements ................................................................................................3
            Requirements Met for Five Programs ........................................................................4
            No Improper Payment Estimate Reported for Two Programs ...................................4
            Gross Improper Payment Rates for Two Programs
              Were Greater Than 10 Percent ................................................................................5

          ACCURACY AND COMPLETENESS OF INFORMATION IN THE
           AGENCY FINANCIAL REPORT ...............................................................................5
            Inconsistencies in Reporting Certain Overpayments .................................................5
            Reporting for Certain Overpayments and Recoveries May Have Been Overstated ..5
            Some Medicare Advantage Overpayments Not Reported .........................................6
            Accuracy in Reporting Improper Payment and Recovery Rates in the
              Agency Financial Report Can Be Improved ...........................................................6

          PERFORMANCE IN REDUCING IMPROPER PAYMENTS......................................7

          RECOMMENDATIONS .................................................................................................7

          DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS ..................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................8

APPENDIXES

          A: TABLES FROM THE FISCAL YEAR 2011 ANNUAL FINANCIAL REPORT

          B: TABLE 3 AND TABLE 5 FROM THE ANNUAL FINANCIAL REPORT
             SHOWING DIFFERENT TOTALS FOR OUTSTANDING OVERPAYMENTS
             IDENTIFIED IN FISCAL YEAR 2011

          C: DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS
                                                                    iv
                                            INTRODUCTION

BACKGROUND

An improper payment is any payment that should not have been made or that was made in an
incorrect amount (either overpayments or underpayments). 1 To improve accountability of
Federal agencies’ administration of funds, the Improper Payments Information Act of 2002
(IPIA; P.L. No. 107-300) as amended by the Improper Payments Elimination and Recovery Act
of 2010 (IPERA; P.L. No. 111-204) requires agencies, including the Department of Health and
Human Services (the Department), to annually report information to the President and Congress
on their improper payments. The IPERA establishes requirements for Offices of Inspector
General (OIG). To implement the IPERA, the Office of Management and Budget (OMB)
revised Circular A-123, Appendix C, parts I and II. Part II requires OIGs to review and report on
agencies’ annual Agency Financial Report (AFR) and accompanying material to determine
compliance with IPIA requirements.

OMB Circular A-123, part II, section A(4), states that to determine compliance with the IPIA, an
OIG should review the AFR of the most recent fiscal year (FY) to determine whether the agency
has:

    •   published an AFR for the most recent FY and posted that report and any accompanying
        material required by OMB on its Web site,

    •   conducted a program-specific risk assessment for each program or activity to identify
        those programs or activities that may be susceptible to significant improper payments,

    •   published improper payment estimates for all programs and activities identified as
        susceptible to significant improper payments in its risk assessment,

    •   published programmatic corrective action plans in the AFR,

    •   published and met annual reduction targets for each program assessed to be at risk and
        measured for improper payments,

    •   reported a gross improper payment rate of less than 10 percent for each program or
        activity for which an improper payment estimate was obtained and published in the AFR,
        and

    •   reported information on its efforts to recapture improper payments (OMB Circular
        A-123, Appendix C, part II, section A(4)).

OMB Circular A-123 also requires the OIG to evaluate the accuracy and completeness of agency
reporting and evaluate agency performance in reducing and recapturing improper payments.
1
  An estimate of improper payments is not an estimate of fraud. Because the improper payment estimation process
is not designed to detect or measure the amount of fraud in programs such as Medicare, there may be fraud in a
program that is not included in the reported improper payment estimate.


                                                       1
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) determine whether the Department complied with the IPIA as
amended by IPERA for FY 2011 in accordance with related OMB guidance, (2) evaluate the
accuracy and completeness of Department reporting, and (3) evaluate the Department’s
performance in reducing and recapturing improper payments.

Scope

Our review covered IPIA information in section III, Other Accompanying Information that was
reported in the Department’s FY 2011 AFR. The Department included information on the
following nine programs, which were deemed by OMB to be susceptible to significant improper
payments: Medicare Fee-for-Service, Medicare Advantage, Medicare Prescription Drug Benefit,
Medicaid, Children’s Health Insurance Program, Temporary Assistance for Needy Families,
Foster Care, Head Start, and Child Care Development Fund.

We were unable to evaluate the Department’s performance in recapturing improper payments
because it did not have sufficient supporting documentation. The Department informed us that it
plans to provide such documentation in the future.

We performed our fieldwork from November 2011 through February 2012.

Methodology

To determine whether the Department complied with the IPIA, we reviewed section III of the
Department’s FY 2011 AFR.

To evaluate the accuracy and completeness of the Department’s reporting, we requested
documentation from the Department to support the balances, amounts, percentages, and ratios
reported in the AFR and reviewed the information provided. We did not evaluate the
Department’s methodology for estimating improper payments. We also reviewed the
Department’s quarterly reports on high-dollar improper payments for FYs 2010 and 2011 and the
results of relevant OIG audits.

To evaluate the Department’s performance in reducing improper payments, we reviewed
documentation provided by the Department on its corrective actions to reduce improper
payments and analyzed reported error rates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                               2
                         FINDINGS AND RECOMMENDATIONS

For five programs (i.e., Medicare Fee-for-Service, Medicare Prescription Drug Benefit,
Medicaid, Foster Care, and Head Start), the Department complied with the IPIA as amended by
IPERA. For four programs (i.e., Medicare Advantage, Children’s Health Insurance Program,
Temporary Assistance for Needy Families, and Child Care Development Fund), the Department
did not meet one or more requirements. For two programs, (i.e., Children’s Health Insurance
Program and Temporary Assistance for Needy Families), the Department did not report improper
payment estimates, and thus could not meet other requirements. For two programs (i.e.,
Medicare Advantage and Child Care Development Fund), the Department reported improper
payment rates that were greater than 10 percent.

For seven programs (i.e., Medicare Fee-for-Service, Medicare Prescription Drug Benefit,
Medicaid, Foster Care, and Head Start, Medicare Advantage, and Child Care Development
Fund), we did not identify any inaccuracies or gaps in most of the information reported by the
Department. However, for two programs (i.e., Children’s Health Insurance Program and
Temporary Assistance for Needy Families), the information reported was inconsistent or
incomplete. In addition, we determined that the Department could improve the accuracy of its
improper payment estimate for the Medicare Fee-for-Service program.

The Department reported reductions in rates for five of the seven programs (i.e., Medicare
Fee-for-Service, Medicaid, Head Start, Medicare Advantage, and Child Care Development Fund)
 for which it reported improper payment rates and developed corrective action plans for all seven
programs that, if implemented as designed, could be effective in further reducing improper
payments.

DEPARTMENT COMPLIANCE WITH THE
IMPROPER PAYMENTS INFORMATION ACT OF 2002

Federal Requirements

The IPERA, as implemented by OMB, defines compliance with the IPIA to mean that the agency
has:

   •   published an AFR for the most recent FY and posted that report and any accompanying
       material required by OMB on its Web site,

   •   conducted a program-specific risk assessment for each program or activity to identify
       those programs or activities that may be susceptible to significant improper payments,

   •   published improper payment estimates for all programs and activities identified as
       susceptible to significant improper payments in its risk assessment,

   •   published programmatic corrective action plans in the AFR,




                                               3
    •   published and met annual reduction targets for each program assessed to be at risk and
        measured for improper payments,

    •   reported a gross improper payment rate of less than 10 percent for each program or
        activity for which an improper payment estimate was obtained and published in the AFR,
        and

    •   reported information on its efforts to recapture improper payments (OMB Circular
        A-123, Appendix C, part II, section A(4)).

Requirements Met for Five Programs

The Department met all of the above requirements for the following five programs: Medicare
Fee-for-Service, Medicare Prescription Drug Benefit, Medicaid, Foster Care, and Head Start.
For example, for Medicaid, the Department conducted a risk assessment and published required
information in the AFR, including a gross improper payment rate of less than 10 percent.

No Improper Payment Estimate Reported for Two Programs

The Department did not publish or report improper payment estimates for the Children’s Health
Insurance Program or the Temporary Assistance for Needy Families program. The Department
did not report an improper payment estimate for the Children’s Health Insurance Program
because Section 601 of the Children’s Health Insurance Program Reauthorization Act of 2009
prohibited it from calculating or publishing a national or State-specific error rate for the
Children’s Health Insurance Program until 6 months after a new Payment Error Rate
Measurement final rule had taken effect. 2 The new final rule for Payment Error Rate
Measurement program became effective September 10, 2010. The Department plans to publish a
Children’s Health Insurance Program improper payment estimate for FY 2011 in the FY 2012
AFR.

As stated in the AFR, the Department did not report an improper payment estimate for
Temporary Assistance for Needy Families because it is a State-administered program and
statutory limitations prohibit the Department from requiring States to participate in a Temporary
Assistance for Needy Families improper payment measurement. The statutory provision does
not prevent the Department from developing an improper payment estimate. As previously
stated, IPIA requires Federal agencies to review all of their programs to identify those that may
be susceptible to significant improper payments. Moreover, OMB has designated Temporary
Assistance for Needy Families as a Federal program with a significant risk of improper
payments. Accordingly, Temporary Assistance for Needy Families is required to estimate
improper payments. In the FY 2011 AFR, the Department stated that it continues to explore
options that will allow for a future error rate measurement. Without improper payment estimates
for these programs, the Department also could not comply with other IPIA requirements.

2
  The Payment Error Rate Measurement program measures improper payments in Medicaid and Children’s Health
Insurance Program and produces error rates for them. The error rates are based on reviews of the fee-for-service,
managed care, and eligibility components of Medicaid and Children’s Health Insurance Program in the FY under
review.


                                                         4
Gross Improper Payment Rates for Two Programs Were Greater Than 10 Percent

The Department’s reported gross improper payment rate for the Medicare Advantage Program in
the FY 2011 AFR was 11.0 percent. Its reported gross improper payment rate for the Child Care
and Development Fund was 11.2 percent. In its 2010 AFR, the Department reported a
14.1-percent gross improper payment rate for the Medicare Advantage Program and a
13.3-percent gross improper payment rate for the Child Care and Development Fund. The
FY 2011 rates indicate that the Department has reduced the gross improper payment rates for
these programs, but it must reduce these rates further to comply with the IPIA requirement of
having an error rate of less than 10 percent. The Department complied with the remaining IPIA
requirements for these programs.

ACCURACY AND COMPLETENESS OF INFORMATION
IN THE AGENCY FINANCIAL REPORT

For seven programs, we did not identify any inaccuracies or gaps in most of the information
reported by the Department. However, we were unable to evaluate the accuracy of the
Department’s reporting on recapturing improper payments because it did not have sufficient
supporting documentation. The Department informed us that it plans to provide such
documentation in the future. In addition, there were inconsistencies in the Department’s
reporting, the Department may have overstated some amounts, and the Department did not report
some overpayments. We also determined that the Department could improve the accuracy of its
improper payment estimate for the Medicare Fee-for-Service program.

Inconsistencies in Reporting Certain Overpayments

Section III.12 of the AFR covers recovery auditing and includes tables with details of
overpayments and recaptured funds (Appendix A). Tables 3 and 5 in section III.12 should
include outstanding overpayments identified by recovery auditors. However, the total
outstanding overpayments identified in these two tables are different. In Table 3, the total is
$163.9 million, and in Table 5, the total is $213.9 million ($59.9 million + $154.0 million). (See
Appendix B.) We were unable to verify the accuracy of either number, and the Department was
unable to provide an explanation for the discrepancy.

Pursuant to section 2(d)(5) of IPIA as amended, the Department is required to summarize in the
AFR how amounts recovered have been disposed of. In the AFR (Table 3, column “Amount
Recovered (CY).”), the Department reported $797.4 million in current-year recaptured funds. In
Table 6, the Department reported a total of $129.4 million ($47.5 million in the column “Agency
Expenses to Administer the Program” and $81.9 million in the column “Payment Recapture
Auditor Fees”). The remaining $668.0 million in recaptured funds, which was returned to the
Medicare Trust fund, was not accounted for in Table 6.

Reporting for Certain Overpayments and Recoveries May Have Been Overstated

In the AFR (Table 7, “Overpayments Recaptured Outside of Payment Recapture Audits,”
Appendix C), the Department reported $14.0 billion in identified overpayments and $10.3 billion



                                                5
in recoveries. However, these amounts may have been overstated because they could include
identified and recovered amounts that the Department does not consider and has never reported
as improper payments. For example, the Department may have included amounts resulting from
reconciliation of items, such as periodic interim payments 3 and cost reports, 4 that are unrelated to
improper payments. Because the Department did not have sufficient supporting documentation
for this section of the AFR, we could not determine the amount of the potential overstatement.

Some Medicare Advantage Overpayments Not Reported

In the AFR (Table 7, “Overpayments Recaptured Outside of Payment Recapture Audits,”), the
Department did not report any amounts for the Medicare Advantage program. However, in its
Quarterly High Dollar Overpayment Report for quarter ending December 31, 2009, it identified
$1.9 million in actual overpayments for this program. In addition, the Department did not report
any identified overpayments or recoveries associated with OIG reviews for the Medicare or
Medicaid programs.

Accuracy in Reporting Improper Payment and Recovery Rates in the Agency Financial
Report Can Be Improved

In the FY 2011 AFR, the Department reported an estimated gross improper payment rate for the
Medicare Fee-for-Service program of 8.6 percent. The Department used estimates of claims that
might be overturned on appeal in future periods. These estimates were based on the results of
Comprehensive Error Rate Testing appeals related to FY 2010 claims. 5 However, an adjustment
based on data from a single year may not be as reliable as an adjustment based on multiple years
of activity. In a previous report, we recommended that the Centers for Medicare & Medicaid
Services develop a reliable methodology for adjusting the Medicare Fee-for-Service error rate,
incorporating the outcome of appeal decisions for Comprehensive Error Rate Testing claim
payment denials, to make the Centers for Medicare & Medicaid Services’ estimate of the value
of reported errors more accurate. 6 Accordingly, we are not making any recommendation on this
issue in this report.




3
 Periodic interim payments are biweekly payments made to a provider enrolled in the periodic interim payment
program and are based on the provider’s estimate of applicable Medicare reimbursement for the current cost report
period.
4
  Providers of services participating in Medicare are required to submit information to achieve settlement of costs
relating to health care services rendered to Medicare beneficiaries (section 1815(a) of the Social Security Act;
42 U.S.C. § 1395g(a)). Regulations state that cost reports “… are required from providers on an annual basis...”
(42 CFR § 413.20(b)).

5
 The Centers for Medicare & Medicaid Services implemented the Comprehensive Error Rate Testing program to
measure improper payments in the Medicare Fee-for-Service program. The Comprehensive Error Rate Testing
program is designed to comply with the IPERA.
6
 OIG, Review of CERT Errors Overturned Through the Appeals Process for Fiscal Years 2009 and 2010,
A-01-11-00504, March 9, 2012.


                                                          6
The Department also reported a recovery rate for improper payments identified by the Medicare
Fee-for-Service Recovery Audit program. Providers may also appeal improper payment
determinations made as a result of this program. Without an adjustment for appeals similar to
that made to the Fee-for-Service improper payment rate, the recovery rate for the Medicare Fee-
for-Service Recovery Audit program is likely overstated.

PERFORMANCE IN REDUCING IMPROPER PAYMENTS

In the AFR, the Department reported reductions in rates for five of the seven programs for which
it reported improper payment rates. The Department reported an improper payment rate for the
Medicare Prescription Drug Benefit for the first time in FY 2011. The Department reported an
increase in the Foster Care program’s improper payment rate from 4.9 percent in 2010 to
5.3 percent in 2011. The Department has developed corrective action plans for all seven
programs that, if implemented as designed, could be effective in further reducing improper
payments.

The Department attributed the increase in the Foster Care program improper payment rate to
higher error rates in three of the States reviewed for the FY 2011 improper payment rate.
According to the Department, those three States were in the top third of States in terms of
program size and error rates and had a substantial impact on the overall program rate.

RECOMMENDATIONS

We recommend that the Department improve its compliance with the IPIA as amended.
Specifically, the Department should:

   •   address payment errors in the Medicare Advantage and Child Care Development Fund
       programs and reduce their improper payment error rates below 10 percent;

   •   develop an improper payment estimate for the Temporary Assistance for Needy Families
       program and, if necessary, seek statutory authority to require State participation in such a
       measurement;

   •   produce a Children’s Health Insurance Program error rate for FY 2012; and

   •   determine the feasibility of developing an estimate to adjust the Medicare Fee-for-Service
       Recovery Audit rate similar to the estimate used to adjust the Fee-for-Service improper
       payment rate.

We also recommend that the Department maintain sufficient documentation to support the
amounts reported in the AFR related to recapturing improper payments, which we were unable to
evaluate.




                                                7
DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS

The Department described the actions it is taking to address the first three recommendations. In
response to our fourth recommendation, the Department pointed out that it did not believe an
adjustment estimate was applicable because, unlike the improper payment estimate, the recovery
audit rate is based on actual amounts identified and recovered. The Department did not comment
on the recommendation to maintain sufficient supporting documentation.

OFFICE OF INSPECTOR GENERAL RESPONSE

We recognize that developing an appeals adjustment estimate for the recovery audit rate may not
be the only solution for recognizing the impact of successful appeals. Nonetheless, it is
important that the Department inform financial statement users about the potential impact of
appeals on the recovery audit rate, particularly if such appeals have a substantial impact on the
rate.

The Department’s comments are included as Appendix C. The Department also provided
technical comments, which we addressed as appropriate.




                                                8
APPENDIXES
                                                                                                                                                                                                                                             Page 1 of 2


                                             APPENDIX A: TABLES FROM THE FISCAL YEAR 2011 ANNUAL FINANCIAL REPORT

                                                                                                      Table 3
                                                                               Payment Recapture Audit Reporting, FY 2011 (in Millions)

                                                                                                                                                            % of Amount                                                                                      Cumulative
                                                                                                                                             Amount                                                             Cumulative
                   Amount            Actual                                           % of Amount                        % of Amount                         Determined        Amounts                                          Cumulative     Cumulative     Amounts
                                                       Amount          Amount                             Amount                            Determined                                            Amounts        Amounts
  Type of        Subject to         Amount                                           Recovered out                       Outstanding                          Not to be      Identified for                                      Amounts        Amounts      Determined
                                                    Identified for    Recovered                          Outstanding                         Not to be                                           Recovered     Identified for
  Payment       Review for CY     Reviewed and                                         of Amount                        out of Amount                        Collectable       Recovery                                         Recovered      Outstanding    Not to be
                                                   Recovery (CY)        (CY)                                (CY)                            Collectable                                            (PYs)       Recovery (CY
                  Reporting       Reported (CY)                                      Identified (CY)                    Identified (CY)                    out of Amount         (PYs)                                          (CY + PYs)      (CY+PYs)     Collectable
                                                                                                                                               (CY)                                                               + PYs)
                                                                                                                                                           Identified (CY)                                                                                    (CY+PYs)

Medicare FFS
Recovery             N/A               N/A            $961.3            $797.4             83              $163.9            17.1              N/A              N/A            $135.7                $75.4       $1,097.0         $872.8         $224.2         N/A
Auditors

HHS-
Contracts
                     N/A               N/A              N/A              N/A               N/A              N/A              N/A               N/A              N/A              $1.5                $0.074        $1.5           $0.074          N/A           N/A




                                                                                                     Table 5
                                                                            Aging of Outstanding Overpayments, FY 2011 (in Millions)

                                                                                    CY Amount Outstanding                             CY Amount Outstanding                                   CY Amount Outstanding
                                                   Type of Payment
                                                                                        (0 – 6 months)                                 (6 months to 1 year)                                       (over 1 year)

                                                  Medicare FFS
                                                                                                 $59.9                                            $154                                                  N/A*
                                                  Recovery Auditors

                                         *Currently, HHS does not separately track over-payments identified by the Medicare FFS Recovery Auditors after they are one year old. HHS is exploring a mechanism to meet this requirement..




                                                                                                          Table 6
                                                                                   Disposition of Recaptured Funds, FY 2011 (in Millions)
                                                                                                                                  Financial
                                                                        Agency Expenses                Payment
                                                                                                                                Management                                         Office of Inspector           Returned to
                                              Type of Payment           to Administer the          Recapture Auditor                                      Original Purpose
                                                                                                                                Improvement                                             General                   Treasury
                                                                            Program                      Fees
                                                                                                                                  Activities

                                             Medicare FFS
                                                                                 $47.5                     $81.9                      N/A                       N/A*                           N/A                    N/A
                                             Recovery Auditors
               *Currently, HHS does not separately track over-payments identified by the Medicare FFS Recovery Auditors after they are one year old. HHS is exploring a mechanism to meet this requirement..
                                                                                                                                                                 Page 2 of 2


                                                                    Table 7
                               Overpayments Recaptured Outside of Payment Recapture Audits, FY 2011 (in Millions)
                                                                                                                                     Cumulative Amount     Cumulative Amount
        Agency Source              Amount Identified (CY)   Amount Recovered (CY)   Amount Identified (PY)   Amount Recovered (PY)
                                                                                                                                     Identified (CY+PYs)   Recovered (CY+PYs)

 Medicare FFS Error Rate
                                           $5.8                     $5.4                    $5.1                     $3.8                  $10.9                  $9.2
 Measurement
 Medicare Contractors                    $14,019.7                $10,256.4               $10,682.9                $9,149.0               $24,702.7             19,405.4
 Medicare Part C                            N/A                     N/A                      N/A                     N/A                    N/A                   N/A
 Medicare Part D                            N/A                     N/A                      N/A                     N/A                    N/A                   N/A
 Medicaid Error Rate
                                           $1.7                     $0.1                    $0.8                     $0.6                   $2.5                  $0.7
 Measurement
 Foster Care Eligibility Reviews
                                           $2.3                     $2.3                    $12.2                   $ 12.2                 $14.5                 $14.5
 = Post-Payment Reviews
 Foster Care OIG Reviews                  $115.9                    $0.7                   $182.0                   $102.0                 $297.9                $102.7
 Foster Care Single Audits                 $1.4                     $0.2                    $26.1                    $26.1                 $27.5                 $26.3
 Child Care-Single Audit                   $2.4                       -                    $0.174                    N/A                   $0.802                 N/A
 Child Care-Error Rate
                                           $0.2                       -                    $0.384                    N/A                   $0.552                 N/A
 Measurement
 Head Start- OIG Reviews                   $0.3                     $0.3                     N/A                     N/A                    $0.3                  $0.3
 Head Start- Single Audits                 $1.4                     $0.7                     N/A                     N/A                    $1.4                  $0.7


Source: Department of Health and Human Services, FY 2011 Agency Financial Report, Section III, Section 12, November 15, 2011.


FY = fiscal year
CY = current year
PY = prior year
HHS = Department of Health and Human Services
FFS = fee-for-service
               APPENDIX B: TABLE 3 AND TABLE 5 FROM THE ANNUAL FINANCIAL REPORT SHOWING DIFFERENT TOTALS
                               FOR OUTSTANDING OVERPAYMENTS IDENTIFIED IN FISCAL YEAR 2011

                                                                                                  Table 3
                                                                           Payment Recapture Audit Reporting, FY 2011 (in Millions)

                                                                                                                                                       % of Amount                                                                                      Cumulative
                                                                                                                                        Amount                                                              Cumulative
                  Amount          Actual                                          % of Amount                        % of Amount                        Determined         Amounts                                           Cumulative   Cumulative     Amounts
                                                    Amount         Amount                             Amount                           Determined                                             Amounts        Amounts
  Type of       Subject to       Amount                                          Recovered out                       Outstanding                         Not to be       Identified for                                       Amounts      Amounts      Determined
                                                 Identified for   Recovered                          Outstanding                        Not to be                                            Recovered     Identified for
  Payment      Review for CY   Reviewed and                                        of Amount                        out of Amount                       Collectable        Recovery                                          Recovered    Outstanding    Not to be
                                                Recovery (CY)       (CY)                                (CY)                           Collectable                                             (PYs)       Recovery (CY
                 Reporting     Reported (CY)                                     Identified (CY)                    Identified (CY)                   out of Amount          (PYs)                                           (CY + PYs)    (CY+PYs)     Collectable
                                                                                                                                          (CY)                                                                + PYs)
                                                                                                                                                      Identified (CY)                                                                                    (CY+PYs)

Medicare FFS
Recovery           N/A             N/A             $961.3           $797.4             83              $163.9            17.1             N/A               N/A            $135.7              $75.4         $1,097.0          $872.8       $224.2         N/A
Auditors

HHS-
Contracts
                   N/A             N/A               N/A             N/A               N/A              N/A              N/A              N/A               N/A              $1.5              $0.074          $1.5            $0.074        N/A           N/A



                                                                                                                                                                                                          $163.9M ≠ $59.9M + $154M
                                                                                                 Table 5
                                                                        Aging of Outstanding Overpayments, FY 2011 (in Millions)
                                                                                CY Amount Outstanding                             CY Amount Outstanding                                   CY Amount Outstanding
                                                Type of Payment
                                                                                    (0 – 6 months)                                 (6 months to 1 year)                                       (over 1 year)

                                               Medicare FFS
                                                                                             $59.9                                            $154                                                N/A*
                                               Recovery Auditors

                                      *Currently, HHS does not separately track over-payments identified by the Medicare FFS Recovery Auditors after they are one year old. HHS is exploring a mechanism to meet this requirement..



               Source: Department of Health and Human Services, FY 2011 Agency Financial Report, Section III, Section 12, November 15, 2011.
                                                                                                                     Page 1 of2

APPENDIX C: DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS



            DEPA RT MENT OF HEALTH & HUMAN SERVIC ES                                         Office of the Secretary


                                                                                             Washi ngton DC 20201




       Daniel R. levinson
                                                                                                               ~
       Inspector General                                                                            r          ~r.

       Department of Health and Human Services                                                                 N
       Cohen Building, Room 5250                                                                               O~
                                                                                                               ..:
       330 Independence Ave, S.W.
       Washington, D.C. 20201



       Dear M r. lel/inson:

       Thank you for sharing the draft report on the results of your review of the Department of Health and
       Human Services' complian ce with Federal requirements for reporting improper payments. The
       Department ap pre ciates the opportunity to review this draft report prior to publication.

       As requested , this response includes information on the status of any act ions that we are taking in
       response to the draft recommendations, as we ll as any planned actions. In addition, our technical
       comments are attached for your consideration.

       Responses to the HHS DIG Recommendations on IPERA Compliance (A-17-12-S2000)

       Recommendation #1 : The Department should "add ress payment erro rs in the Medicare Advantage and
       Child Care Deve lopment Fund programs and reduce their improper payment error rates below 10
       percent."

               HHS Response: HHS is comm itted to reducing improper payments in all of its programs. As the
               draft report notes, in Fiscal Year (FY) 2011 the Department reduced th e improper payment rate
               for the Medicare Advantage program from 14.1 percent to 11 percent, and the Child Care
               Development Fund program from 13.3 percent to 11.2 percent. Despite th is marked
               improvement, the programs continued to report improper payment estimate s above 10 percent
               in FY 2011.

               HHS recognizes the importance of reducing the error rate in these two programs. We have
               taken a number of actions, outlined in the FY 2011 Agency Financial Re port (AFR), to reduce the
               Medicare Advan tage and Child Care Development Fund program error rates (see
               http://www .hhs.gov/ afr/ for HHS' AFR, released November 15,2011). We believe th ese actions
               will allow HHS to achieve erro r rates below 10 percent for these programs in future reporting
               cycles .

       Recommendation #2: The Department shou ld " develop an improper payment estimate for the
       Temporary Assistance for Needy Families program and, if necessary, seek statutory authority to require
       State participation in such a measurement."




                                                           1
                                                                                                   Page 2 of2




        HHS Response: As noted in HHS' FY 2011 AFR, sta tutory limitations prohibit the Department
        from requiring states to participate in a Temporary Assistance for Needy Families (TANF)
        program error rate methodology. Under the TANF statute, HHS lacks authority to require states
        to calculate or report improper payment rate s. HHS wi ll work to include a legislative proposal
        that   will allo w for a TANF error rate mea surement whe n Congress co nsiders TANF
        reauthorization. Until the law can be changed, the Department continues to work with states
        on reducing improper payments in th e TANF program.

Recommendation #3: Th e Department should "produce a Children's Health Insurance Program error
rate for FY 2012.11

        HHS Response: As noted in the FY 2011 AFR and the draft OIG report, HHS was prohibited by
        statute from calculating or publishing an error rate for the Children's Hea lth Insurance Program
        (CHIP) until 6 months after a new Payment Error Rate Measurement (PERM) final rule had taken
        effect. The PERM final ru le that was published on August 11, 2010, identified FY 2011 as the
        first fisca l year for which PERM wi ll measure a CHIP error rate and defined the methodology for
        the measurement. The PERM measurement is underway, and HHS is on track to report a CHIP
        improper payment estimate in the FY 2012 AFR that is based on a review of FY 2011 payments.

Recommendation #4: The Department should "determine the feasibility of developing an estimate to
adjust the Medicare Fee-For-Service Recovery Audit rate similar to the estimate used to adju st the Fee­
For-Service improper payment rate."

        HHS Response: We do not believe that developing an adjustment. estimate, similar to the one
        used in adjusting the Medicare FFS improper payment rate, is applicable to the Medicare FFS
        Recovery Audit rate because the reported Recovery Audit information is based on actual
        amounts identified and re covered through the end of the fiscal year (September 30th ) . It is not
        an estimate or projection, and thus unlike the improper payment ra te estimate. In addition, any
        changes (i.e., co llections or appeals) that occur after the end of the fi sca l year are included in
        the annual Recovery Audit Report to Congress.

Th ank you again for you r ongoing efforts to assist the Department. We look forward to continuing to
partner with your office to prevent and reduce improper payments.

                                                  Sincerely,




                                                  Ellen G. Murray
                                                  Assistant Secretary fo r Financial Resources




Attachment: Technical Comments on the HHS OIG Draft Report on iPERA Compliance (A-17-12-S2000)



                                                     2
